<html>
<title> - IRAN AND HEZBOLLAH IN THE WESTERN HEMISPHERE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                         IRAN AND HEZBOLLAH IN 
                         THE WESTERN HEMISPHERE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2015

                               __________

                           Serial No. 114-34

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-819 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
TOM EMMER, Minnesota

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Joseph Humire, Author........................................     9
Mr. Dardo Lopez-Dolz (former Vice Minister of Interior of Peru)..    26
Mr. Scott Modell, senior advisor, The Rapidan Group..............    36
Mr. Michael Shifter, president, Inter-American Dialogue..........    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Joseph Humire: Prepared statement............................    11
Mr. Dardo Lopez-Dolz: Prepared statement.........................    28
Mr. Scott Modell: Prepared statement.............................    39
Mr. Michael Shifter: Prepared statement..........................    46

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina, and chairman, Subcommittee on the 
  Western Hemisphere: Material submitted for the record..........    76

 
                         IRAN AND HEZBOLLAH IN 
                         THE WESTERN HEMISPHERE

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

                       House of Representatives,

               Subcommittee on the Western Hemisphere and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 10:15 a.m., 
in room 2172 Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the Subcommittee on the Western Hemisphere) 
presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order.
    I will start by asking unanimous consent that two written 
testimonies be entered into the congressional record--first, 
the testimony of Mr. Leonardo Coutinho, a reporter with Veja 
Magazine, and second, the testimony of Mr. William Ross Newland 
III, managing director of The Delion Group, a former station 
chief in Havana and Buenos Aires. With no objection, so 
ordered.
    Given this is a joint subcommittee hearing, opening 
statements will be limited to the subcommittee chairs and the 
ranking members. All other members may submit statements for 
the record within 5 business days and I would now like to 
recognize myself for an opening statement.
    Before I do so, the ranking member is on his way so 
hopefully he will be here by the time I conclude my opening 
remarks.
    At a time when world powers are negotiating with Iran over 
its illicit nuclear weapons program to reach a deal by the 
March 31st deadline, Iran has not shown a commitment to good 
faith negotiations to peace.
    For years, Iran has tested the patience of the world with 
its defiance of international sanctions and its support for 
terrorism. Nowhere is this more concerning for U.S. national 
security interests than in our own neighborhood, the Western 
Hemisphere.
    Today, I want to consider implications for the U.S. and 
countries in this region if we continue to ignore Iran and 
Hezbollah's activities here in our hemisphere.
    Given the significance of the P5+1 negotiations with Iran 
and potential effects resulting from a deal or lack thereof, it 
is critical that Iran not have an opportunity to exploit 
vulnerabilities in our region to cause harm.
    Congress has focused extensively on this issue with several 
hearings, visits to the region, and legislation which I 
authored, entitled the Countering Iran in the Western 
Hemisphere Act, which became public law in 2012.
    I want to pause and thank Representative Higgins and 
Chairman Ros-Lehtinen for their assistance in getting that 
passed into law. Nevertheless, I am deeply concerned that in 
their hope for a nuclear deal with Iran, the Obama 
administration and governments in the region are not paying 
enough attention to this issue.
    In September 2014, the GAO released a report that found 
that U.S. State Department had only fully addressed two of the 
12 elements required by that public law--Countering the Iranian 
Threat in the Western Hemisphere.
    As of today, the State Department has not fixed these gaps 
or conducted a reassessment of the Iranian threat in the 
Western Hemisphere. I believe this negligence is misguided and 
dangerous.
    Iran and Hezbollah have already demonstrated a willingness 
to conduct terrorist attacks in the Western Hemisphere. 
Consider the recent foiled plot by a Hezbollah operative in 
Peru in October 2014 and the attempted attack linked to an 
Iranian diplomat in Uruguay last month. Or recall the 2011 
attempted assignation of the Saudi Ambassador to the United 
States in Washington DC and the foiled Iranian plot in 2007 to 
blow up the John F. Kennedy Airport in Queens, New York.
    These events follow Iran's 1992 attack on the Israeli 
Embassy, 23 years ago yesterday, and the 1994 bombing of the 
Argentine Israelite Mutual Association, AMIA, in Buenos Aires. 
Yet, today in Argentina no one has been brought to justice for 
these attacks, even though Argentine prosecutor Alberto Nisman 
determined in 2006 that Iran was responsible--in contrast, the 
U.S. State Department's findings in its 2013 report to Congress 
that Iran's influence in the region was waning.
    Nisman published a report about the same time that provided 
evidence of Iran's subversive infiltration of multiple 
countries in the Caribbean and in Latin America. Unfortunately, 
much of Mr. Nisman's report went unheeded by the U.S. and the 
countries named in the report.
    Then 2 months ago, Nisman indicted the President of 
Argentina, alleging that the Governments of Argentina and Iran 
had engaged in a cover-up regarding Iranian officials linked to 
the 1994 AMIA terrorist attack in exchange for oil and weapons.
    On January 18, Mr. Nisman was mysteriously found dead in 
his apartment with a bullet wound to the back of his head right 
behind the ear, presumed to be murdered.
    This past Friday, Brazilian Veja magazine published another 
stunning report. The report found that representatives of the 
Argentine Government received large amounts of cash from Iran 
in exchange for the AMIA attack to be covered up.
    Reportedly, Venezuela even facilitated the transfer of 
money directly from Tehran to the tune of about $800,000, 
according to the report, to Argentine President Cristina 
Kirchner's election campaign.
    Significantly, the report alleged that Iran gave this money 
in order to obtain nuclear technology and knowledge of 
Argentina's nuclear program. I recommend that article for other 
members of the committee.
    These are very serious findings that demand further 
scrutiny by the U.S. and governments within the region. 
Although these events seem to be compelling evidence that Iran 
and Hezbollah are up to no good in the Western Hemisphere, some 
believe that Iran doesn't prioritize Latin America as highly 
under President Rouhani as was the case under previous 
Presidents, for Rouhani has yet to visit the region.
    However, Iran's diplomacy should not be the only indicator 
of Iran's activity in the region. According to Mr. Newland's 
written testimony that was submitted for the record, the 
Iranian logistical and intelligence infrastructure is in place 
in Latin America even if their political and economic relations 
within the region have waned.
    Newland also states that the two most important centers of 
the Iranian influence are Cuba and Venezuela, while the Tri-
Border region contains a community with many individuals 
providing financial support to Hezbollah.
    Similarly, Mr. Coutinho, the same individual who broke the 
Veja story this past weekend, submitted written testimony that 
was included in the record. His statement outlines Iranian 
activity in Brazil and explains that the country plays the role 
of a safe haven for Islamic extremist groups.
    Coutinho further elaborates that Brazil served as a 
planning and operations hub for the Iranian 1992 and 1994 
attacks in Argentina and continues to exist today as an 
operational base, a weapons cache, a source of revenue for 
generation for the financing of terrorist operations and 
organizations, most notably Hezbollah.
    Coutinho's testimony quotes from numerous Brazilian law 
enforcement sources that Hezbollah and Hamas supporters have 
been detected in Brazil and that Hezbollah has sold weapons to 
Brazilian criminal organizations.
    In view of this information, I find it incredible that, 
according to Coutinho, Brazil recognizes Hezbollah as a 
legitimate political party rather than a foreign terrorist 
organization, and Brazil's Parliament has not passed anti-
terrorism legislation which could improve coordination on these 
issues.
    Yet, Brazil is not alone. The recent situations in Peru, 
Uruguay, Argentina and bombing Iran shows clear areas of 
vulnerability in the region. Additionally, the Central America 
four-border control agreement originally signed in 2006 permits 
the free movement of citizens from El Salvador, Guatemala, 
Honduras, and Nicaragua without any restrictions, similar to 
the Schengen agreement in Europe.
    This measure, while beneficially portrayed, offers 
opportunities for exploitation by drug traffickers, terrorists, 
or even foreign fighters. Similarly, the Caribbean is also a 
growing place for trans shipments of drugs and other contraband 
that Iran and Hezbollah could exploit.
    So, in conclusion, Iran and Hezbollah are present in the 
Western Hemisphere. Last week, the U.S. Southern Commander, 
General John Kelly, testified to the presence of these actors 
in the region and also stated the U.S. challenge is our limited 
intelligence capabilities.
    In view of the fact that Iran is the world's largest state 
sponsor of terrorism, it is pursuing nuclear weapons, and 
recent events show that Iran has capacity to conduct terrorist 
attacks in the Western Hemisphere, I believe the U.S. and other 
governments in the region must do more to address this issue.
    So with that, I will turn to the ranking member, who just 
joined us, for his opening statement.
    Albio, welcome to the committee and you are recognized for 
as long as it takes.
    Mr. Sires. Thank you, Chairman, and let me apologize to you 
for not being here on time. I had another hearing. I apologize 
to you for not being here on time.
    Look, I will be very short. I certainly agree with the 
chairman's assessment. You know, we have to be on the lookout 
on the Iranian influence in the Western Hemisphere. It seems to 
me that we are preoccupied with all the events in the world and 
yet when it comes to--close to our what we call our back yard 
it seems like we don't pay as much attention as we should.
    I am concerned about the influence in Venezuela. I am 
concerned about the influence and what is going on in 
Argentina. We were--last 2 years ago with Chairman Salmon we 
were in Argentina and we raised the issue and, basically, they 
had no answers for us.
    The issue whether we are going to Iran to question some of 
the generals, I mean, that never panned out. So it is all a 
sham what is going on, and now you have an issue where they 
just killed a prosecutor.
    So I am very concerned about the issue of the Iranian 
influence in the Western Hemisphere. And with that, I will just 
turn it over back to the chairman.
    Mr. Duncan. I thank the gentleman.
    I too was in Argentina in 2012 with Chairman Michael 
McCaul, the Homeland Security chairman currently. He was 
chairman of OME Subcommittee and a lot of the things that the 
ranking member mentioned about the dialogue with Argentina were 
completely similar.
    They just didn't have an answer or tried to sort of 
downplay that. So with that, I will recognize a former chairman 
of the committee, Ms. Ros-Lehtinen, for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Duncan, 
Ranking Member Sires, Ranking Member Deutch. It is a pleasure 
to work with all of you and to hold this subcommittee jointly. 
I thank all of you for your leadership.
    Two years ago, these two subcommittees held a similar joint 
hearing to discuss the State Department's reports on Iran's 
influence in Latin America that you spearheaded, Mr. Chairman.
    Our assessment then, that the report was woefully 
inadequate, that State did not follow the law as required, that 
our Federal agencies lack a coherent and detailed strategy to 
combat Iran in the hemisphere, was confirmed by a GAO report 
published last year.
    It is simply unacceptable for our administration to ignore 
the threats in the region simply because the President wishes 
to forge a foreign policy legacy, whether it be with Cuba or 
Iran.
    State should immediately provide our subcommittees with the 
missing information on Iran's activities in the Western 
Hemisphere and explain why the information was not included in 
the first place.
    Despite State's intransigence, its partners at SOUTHCOM 
disagreed with its assessment and have been forthcoming, as you 
pointed out, Mr. Chairman, about the nature and the risk of the 
Iranian threat.
    SOUTHCOM has repeatedly stated that its very own limited 
intelligence capabilities in the region combined with the lack 
of partner capacity has prevented our full awareness of Iran 
and Hezbollah's activities and that is where our problem lies.
    The Obama administration has failed to allocate the 
necessary resources to truly assess the threat of Iran and 
Hezbollah not just in our hemisphere but throughout the world.
    The intelligence community does not have the resources nor 
the political support to properly address the threat because so 
much attention is being paid elsewhere. And as General Kelly 
stated, Mr. Chairman, and you pointed it out, it isn't just 
Iran that is threatening our region. It is ISIL and other 
terrorist groups. But we have not given this threat its due 
attention.
    We are currently not able to track national security 
threats in the region including potential instability, the 
influence of Iran and other actors like Russia and China, and 
the collaboration between criminal and terrorist networks.
    The administration continually underestimates the threat in 
the region that pose a grave risk to our own national security 
as well as that of our partners.
    What we do know is that Iran and its proxy Hezbollah want 
to circumvent sanctions to counter U.S. influence and to make 
use of growing networks of transnational organized crime in 
order to finance its own terror activities.
    Iran has opened up more than 80 cultural centers in Latin 
America in order to export its toxic brand of political 
influence and serve its interest, focusing on partnering with 
nations well known for their anti-American rhetoric including 
Venezuela, Argentina, Bolivia, Ecuador, and Nicaragua.
    The Treasury Department has sanctioned multiple Venezuelan 
banks and Venezuelan regime operatives including the former 
Minister of Interior and Justice. The State Department has 
designated Venezuela's state-owned oil company, PDVSA, and 
CAVIM, the Venezuelan weapons company, for their role in 
helping Iran circumvent sanctions.
    Yet, the Obama administration continues to buy oil from the 
same entity that it sanctioned in 2011 for shipping two cargoes 
of gasoline to Iran. And we are seeing terrorist groups forge 
connections to drug cartels in the region, forging a deepening 
narcoterror connection that is funding so many of the terror 
groups and their activities.
    Drug trafficking funds terrorism. It is that simple. So our 
comprehensive strategy must also address this fundamental cause 
of the problem.
    Recent reports of the connections between Hezbollah and the 
FARC, the murder of the special prosecutor of Argentina, 
Alberto Nisman, and the alleged conspiracy between the 
Argentine Government, Venezuela and Iran to cover up 
Hezbollah's activities and involvement in the AMIA bombing do 
nothing to quell doubts about Iran's activities in Latin 
America.
    Alberto Nisman was a courageous and strong leader who was 
dedicated to pursuing the truth behind the AMIA terrorist 
attacks wherever they may have led. His murder must be 
investigated in a comprehensive and transparent manner to 
search for the truth and his work on AMIA must continue 
forward.
    The AMIA attack wasn't the first time we saw Iran's deadly 
activities in Argentina. Yesterday was the 23rd anniversary of 
the bombing of the Israeli Embassy in Buenos Aires which killed 
29 and injured hundreds more.
    I stand in solidarity with the people of Argentina in 
mourning this horrific attack, the AMIA bombing, and the tragic 
loss of Alberto. We must ensure that Nisman's memory and his 
life work carry on.
    So the question is why is this administration so intent on 
downplaying the Iranian threat? It now appears that the 
administration has even scrubbed its most recent worldwide 
threat assessment report of all Iranian connections to 
terrorism or Hezbollah in order to make it easier to eventually 
lift sanctions on Iran.
    The parallels between the administration's misguided Iran 
policy and its Cuba policy are clear. The President has been 
using Cuba as a test case for normalizing relations with Iran.
    So it should come as no surprise that the Iranian threat in 
our own hemisphere is also downplayed by the administration. It 
is time for the President to stop trying to burnish his foreign 
policy legacy and stop putting politics ahead of national 
security.
    The White House must let the truth about Iranian 
involvement in the Western Hemisphere be exposed, put the 
necessary intelligence capabilities in place to monitor Iran 
and its activities, and develop a serious strategy to counter 
what can only be called a threat.
    Thank you, Mr. Chairman, for your leadership.
    Mr. Duncan. I thank the gentlelady for her leadership and 
the chairman of the Middle East and North Africa.
    I now turn to the ranking member of that Subcommittee on 
the Middle East and North Africa, Mr. Deutch from Florida, for 
5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman, Ranking Member Sires 
and Chairman Ros-Lehtinen for holding this hearing.
    As the international spotlight is focused on Iran's illicit 
nuclear weapons program we can't be distracted from Iran's 
other dangerous and subversive acts around the world.
    This is our subcommittee's second hearing on Iran's efforts 
to expand its network of influence into the Western Hemisphere 
since Congress passed the Countering Iran in the Western 
Hemisphere Act championed by Chairman Duncan and Congressman 
Higgins in 2012.
    That legislation made clear that Congress would not turn a 
blind eye to Iran's work in the hemisphere done both in a 
public way and in any clandestine way and that there must be a 
viable strategy to counter the manipulative tactics and 
deplorable goals of the regime.
    We knew then that the Iranian regime has and will resort to 
almost any illicit activity that furthers its ambitions of 
being a global force against the United States and our allies.
    Iran's fingerprints have been found in numerous instances 
of illegal arms shipments from West Africa to Yemen and its 
notorious network of terror proxies including Hezbollah, Hamas, 
Islamic Jihad, and other groups.
    Since a growing and more unified international coalition 
began exerting crippling political and economic pressure on 
Iran, it started seeking out countries that were inclined to 
align with it against the United States and would be willing to 
help it evade international sanctions and that were in need of 
economic support and trade deals.
    In Latin America, Iran found several partners that were 
open to collaborating with a pariah state and were willing to 
accept the risks of violating international sanctions to do so.
    Alberto Nisman witnessed this. The Argentine investigator 
knew that Iran and its proxies were active in Argentina. He 
knew that Iran was behind the bombing of the Buenos Aires 
Jewish Community Center and how Iran used its proxy Hezbollah 
to carry it out.
    Clearly, Iran wasn't and still isn't afraid of committing 
brazen and public attacks on Jews around the world, and aside 
from small and ineffective punitive measures Iran has yet to be 
deterred from financing terrorist groups and encouraging 
attacks on innocent civilians.
    But Nisman also knew that Iran's presence wasn't restricted 
to Hezbollah's cells around the region. Rather, traces of 
Iranian influence could be found in high levels of leadership 
in the region.
    According to recent press reports, there is evidence of 
considerable collaboration between Hugo Chavez, former 
President Ahmadinejad, and Argentina's current President, 
Cristina Kirchner, with guarantees of energy deals, cash 
transfers, and assistance in clearing Iran's name from its 
involvement in the AMIA bombing.
    Tragically, Nisman's voice was silenced when he was found 
shot in his home in January. We must honor him by continuing to 
push for justice not only for his work but for his death.
    Some have wondered if events of late might have changed the 
calculation of Iran and its friends in the Western Hemisphere. 
With Chavez's death in March 2013, Latin America lost its most 
outspoken critic of the United States and leader of the anti-
American alliance with Iran.
    A few months later, President Ahmadinejad left office and 
was replaced by President Rouhani. So within the course of a 
few months, Iran in Western Hemisphere countries lost two of 
its most vocal leaders who enjoyed a close personal 
relationship, calling into question the sustainability of the 
union without them.
    The State Department's country reports on terrorism for 
2013 noted that Iran has been unable to expand its economic and 
political ties in Latin America and I think there are many who 
would question that declaration.
    Regardless, we can't afford to shift our attention away and 
let Iran's influence grow under the radar. President Rouhani 
has made it very clear that he has no intention of letting his 
country's ties with the region weaken.
    There have been a number of visits and exchanges between 
leaders and lawmakers from Latin American countries and Iran in 
the past few years. And just as our hopes for a more moderate 
Iran have been crushed as we witnessed no drop--no drop in 
support for terrorist groups or in the number of human rights 
violations against the Iranian people, we should not be 
surprised that President Rouhani has not stepped back from the 
foundation laid by President Ahmadinejad.
    So there remains work for the United States to do to 
counter the Iranian influence and stem the infiltration of 
terrorist groups in the Western Hemisphere.
    Last September, the GAO released a report on the 
government's efforts to meet the obligations included in the 
2012 Countering Iran in the Western Hemisphere Act.
    In its assessment there are considerable numbers the 
chairman referred to earlier--there are a considerable number 
of elements that have yet to be addressed or were not addressed 
sufficiently.
    We should double down on our commitments to identify and 
designate terrorists and Iranian proxies that intend to 
destabilize the region and harm innocent civilians.
    We have to ensure that Iran cannot use other countries to 
circumvent sanctions and that other countries recognize the 
real risk of violating U.S. and international sanctions.
    And we must work with our allies in the region to bolster 
counter terrorism capabilities and prevent Iranian proxies from 
targeting and terrorizing communities and Jewish populations.
    I look forward to hearing from our witnesses today about 
what they view as the most immediate and significant concerns 
posed by Iran in the hemisphere, where the United States and 
the international community can take action to counter and 
deter this influence, and we are grateful for your presence 
here today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. I thank the gentleman for his comments. I think 
you are spot on. Before I recognize you to provide testimony, 
let me explain the lighting system before you.
    Each of you have 5 minutes to present your oral statement. 
That light will be green until you are getting close to the 
end. With 1 minute left it will go to yellow. So when you see 
the yellow, again, wrapping up. So if you see it turn yellow 
wrap up your statement and anyway so I will give a little 
leeway if you are--if you are making a point.
    But when we get to the end we will wrap it up, and that 
goes for the members as well. With a large--four panelists and 
a lot of questions we will try to stay on the 5-minute time 
frame.
    So the first--the biographies are in your notebook. I am 
not going to do the biographies. We are going to recognize in 
essence of time.
    Mr. Humire, you are recognized for 5 minutes.

             STATEMENT OF MR. JOSEPH HUMIRE, AUTHOR

    Mr. Humire. Thank you. Chairman Duncan, Chairwoman Ros-
Lehtinen, Ranking Members Sires and Deutch, distinguished 
members of both subcommittees, good morning. It is a privilege 
to appear before you today.
    The death of Dr. Alberto Nisman on January 18th shocked us 
all. I remember receiving the news on a late Sunday afternoon 
in quite disbelief, hoping that these were just Internet 
rumors. Unfortunately, several hours later his death was 
confirmed.
    Aside from the shock, at the time my initial reaction was 
that Iran was involved. Of course, this is not proven and most 
likely we will never know all the circumstances surrounding his 
mysterious death.
    But as time goes by and more evidence is revealed, what we 
do know is more about the extent to which Iran has infiltrated 
Argentina.
    Just last week--Chairman Duncan, you referred to this--the 
highly respected Brazilian weekly Veja reported that the 
Argentine President, Cristina Fernandez de Kirchner, had 
received Iranian financial support for her Presidential 
campaign all the way back in 2007.
    This means that that highly controversial memorandum of 
understanding between Iran and Argentina signed in 2013 was a 
campaign promise made by Argentine President 6 years earlier.
    Moreover, through the wiretaps related to Dr. Nisman's most 
recent investigation, we are realizing that the mastermind of 
the AMIA attack--Iranian intelligence operative Mohsen Rabbani, 
who the Brazilians call the terrorist professor--is still 
active in Argentina, sending money, making orders, and 
interfering in Argentine diplomatic affairs.
    But the most interesting revelation from the Veja piece is 
not who Iran has bought in Latin America but why. According to 
the Venezuelan military defector who was the source for this 
report, whitewashing Iran's accused from the AMIA attack was 
only a secondary objective for Iran's controversial outreach to 
Argentina.
    The primary objective was to gain access to Argentina's 
nuclear technology and her materials, a goal the Islamic 
Republic has had for over 20 years--the same goal that, 
according to Dr. Nisman, is partially the reason why Argentina 
was targeted in the first place back in the early 1990s.
    In this Veja piece, there is a recount of private meeting 
between former Iranian President Mahmoud Ahmadinejad and the 
late Hugo Chavez in which Ahmadinejad told Chavez, and I quote, 
``This is a matter of life or death. I need you''--referring to 
Chavez--``to be an intermediary with Argentina to get help for 
my country's nuclear program. We need Argentina to share its 
nuclear technology with us. It will be impossible to advance 
our program without Argentina's cooperation.''
    Impossible is a strong word. This suggests that Iran needs 
Latin America to complete its highly ambitious nuclear program. 
If this is the case, then I believe we have all underestimated 
Latin America's importance to the Islamic Republic and by 
extension can no longer afford to divorce the ongoing nuclear 
negotiations with the P5+1 and Iran's activities in the region.
    And as these negotiations come to a critical juncture, it 
is more important than ever to understand to what degree does 
Latin America benefit Iran. Venezuela, Argentina is just the 
tip of the iceberg.
    In my written testimony, I describe a conceptual model for 
how Iran has infiltrated and gained an inordinate amount of 
influence in just about every country in Latin America and the 
Caribbean.
    Of course, there is varying levels of success. In some 
countries, namely the Bolivarian Alliance Nations, Iran has 
embedded themselves completely into the highest levels of those 
governments. In other countries, they are still operating at a 
covert level, perhaps through their proxy, Lebanese Hezbollah.
    But in all cases, it is safe to say that Iran has a 
footprint in every country throughout the region. In my book, I 
call this--I call this pattern of infiltration the pattern of 
penetration which is why we called the book ``Iran's Strategic 
Penetration of Latin America,'' which is co-authored with 
several prominent Latin American scholars, officials, military 
officers, and policymakers, all who themselves describe how 
Iran and Hezbollah is operating in their respective countries.
    We uses the term ``strategic penetration'' in the title on 
purpose because the word strategic implies that Iran has a 
plan. The word ``penetration'' means that they are executing 
this plan through covert methods.
    So as we examine the issue in today's hearing, I ask that 
you keep in mind that there is a degree of difference between 
what Iran and Latin American allies say they are doing and what 
they are actually doing behind the scenes, because it is the 
work behinds the scenes, their covert work, that is driving 
their influence in the region--an influence that extends to the 
United States through Latin American politicians.
    And to pay special attention to the Organization of 
American States. The Argentine Ambassador, Nilda Garre, is 
proven to have a close relationship to Venezuela as becoming 
the former Argentine Ambassador to Venezuela and also a close 
relationship to Iran by being the former Minister of Defense of 
Argentina.
    Also today there is a vote on the Organization of American 
States for a new general secretary. The most likely candidate, 
Luis Almagro, also had a close relationship to Iran, being an 
Ambassador to that country many years ago.
    For a long time, Iran and Hezbollah's presence in Latin 
America was viewed as a defensive posture in case of conflict 
with Israel or the West erupts in the Middle East.
    But as the Iranian nuclear negotiations heat up, the 
question we must all ask and answer is at what point does a 
good offense become your best defense.
    And with that, I yield my time. Thank you.
    [The prepared statement of Mr. Humire follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Duncan. I thank the gentleman for his testimony. There 
will be an opportunity for us to delve more into that during 
the question and answer time.
    So I will recognize Mr. Lopez-Dolz.

  STATEMENT OF MR. DARDO LOPEZ-DOLZ (FORMER VICE MINISTER OF 
                       INTERIOR OF PERU)

    Mr. Lopez-Dolz. Thank you. Ranking Member, Chairman and 
members of the Subcommittee on the Western Hemisphere, I very 
much appreciate the invitation sent by Committee Chairman Royce 
permitting me the opportunity to appear before you today.
    My testimony began with the case of Muhamad Amadar, a 
presumed Lebanese terrorist and confessed Hezbollah member, who 
was arrested by the Peruvian National Police in October 2014 
for possession of explosives that have distant similarities 
with explosives usually employed by Hezbollah. The intended 
target of these explosives was not identified. Photos were 
found on his iPad by the Peruvian-North American Cultural 
Institute and the Lima International Airport.
    But since clear is that Amadar is not--is an explosives 
manufacturer but not an operator. He was not going to be the 
engineer who would carry out the attack that was presumably 
being prepared.
    His network will continue to be around and should be 
assumed to be intact. Therefore, its operational regional 
capability can continue to build and intensify without 
difficulty.
    In my testimony, I describe Hezbollah recruitment in Peru. 
Since at least the end of the 1990s, Iran had recruited native-
born Latin Americans into training, where they use faith with 
military and political indoctrination and a key precept is that 
Iran's mission--indeed, its obligation--is ostensibly expressed 
as a movement to liberate the oppressors of the world.
    This purported goal is one also embraced by the violent 
radical movements in South America that almost all have clear 
anti-Western and anti-Reagan inspiration.
    Hezbollah recruitment activity has been focused in southern 
Andes, the poorest region of Peru, an area of rampant and 
flagrant trafficking in drugs, weapons, and human trafficking--
without any real possibility of detecting what or who enters or 
leaves the area that has many conditions that are a clear 
advantage for the expansionist plans of Iran.
    The southern border with Bolivia and Chile is highly porous 
and permeable in the jungle regions as well as the highland and 
mountain ranges. Consider the great interest of Iran in Bolivia 
and the apparent closeness of the two governments, the dangers 
stemming from their presence in the area expands geometrically.
    Another significant concern is that Peruvian national 
intelligence source speak of more than 120 military reservists, 
meaning former active duty soldiers, who were recruited and 
sent to Iran via Quito in Ecuador for political indoctrination 
and possible advanced military training.
    In terms of risk, the Hezbollah reserves in Bolivia could 
be easily used as a support element or an attack element 
against entities perceived as U.S. or Israeli interests.
    In fact, they are already acting to undermine democratic 
institutions and the political capacity of the Peruvian economy 
in coordination with their obvious allies, receiving 
inspiration from Chavista or Bolivarian movements.
    It is important to stress that fundamental characteristics 
of Andean culture. It's considered a fertile breeding ground 
for totalitarian ideological proposition or fundamentalist 
theocratic concepts.
    The cultural similarity between the Shi'ite worldwide and 
the southern Andean world could, given funding and sufficient 
education, generate a rapid expansion of Hezbollah cells.
    Finally, there is a dangerous proximity between these 
cells, the Governments of Cuba and Venezuela, and Latin 
American terrorist organizations that joined to direct the so-
called Fronts for the Defense of the Environment, positions to 
which no one has elected them, in titles that they themselves 
have appropriated.
    Using this cover, they systematically and flagrantly oppose 
all major investments and development projects, leaving illegal 
mining and illegal narcotics production as the only de facto 
industries in these poverty-stricken areas.
    I will say it is imperative to reinforce ties with the 
Peruvian police force, its legal system, Peruvian intelligence, 
and the Peruvian armed forces to combat these new enemies to 
democratic stability, freedom, and economic growth, which is in 
the common interest of my country and the U.S.
    This new focus, if backed by your country, would support 
not only security in the U.S. and Peru, but also freedom and 
free markets in the Western Hemisphere, all of which are 
undermined by narcotics trade and extremists in the region.
    Human intelligence networks are also needed in a broad area 
and electronic communication to ensure that Hezbollah and their 
partners cannot expand their influence and ultimately cannot 
threaten the common interest as well as the internal security 
of both Peru and the United States.
    Thank you for your time and attention. I look forward to 
your questions.
    [The prepared statement of Mr. Lopez-Dolz follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. I thank you.
    Mr. Modell, you are recognized for 5 minutes.

  STATEMENT OF MR. SCOTT MODELL, SENIOR ADVISOR, THE RAPIDAN 
                             GROUP

    Mr. Modell. Chairman Duncan, Chairwoman Ros-Lehtinen, 
Ranking Member Sires and Deutch, thank you, members of the 
committee, fellow panelists. Good morning.
    I was planning on spending the first part of my statement 
going over what I thought was the Iran Action Network, a 
combination of the ministry of intelligence and the IRGC and 
all the things that they have done over the years in the 
region.
    But I think that has been adequately--more than adequately 
covered. I would like to spend the little time that I have to 
discuss some of the things that I think we should do going 
forward as far as solutions as a government looking at this 
region, particularly given the inadequacies that have been 
pointed out as far as the lack of attention and resources 
toward this region.
    In my opinion, even if sanctions and diplomacy lead to a 
nuclear agreement with Iran, the activities of both Iran and 
Hezbollah will continue to post significant challenges to any 
long-term relationship or rapprochement with the West.
    To address the threats that are likely to live on long 
after any deal is reached, in my opinion we should consider the 
following recommendations.
    First, we need to take more of network approach to 
countering Iran. I think it was pointed out here that the State 
Department is woefully inadequate in the attention that it 
gives toward the Iranian threat in Latin America. There is a 
government-wide lack of attention.
    I think when you look at the agency or look at DEA and 
others who have very specific mission sets, I would argue that 
they actually are adequately focused on, whether it is 
narcotrafficking or Iran or other hard targets in the region, 
but there is not a combined whole of government counter network 
approach that I think we really need to start looking at.
    In particular, when you are looking at Hezbollah, which I 
think is arguably even more dangerous than Iran as a whole 
across the region, there is a real need to identify the 
external security organization--Hezbollah's armed wing overseas 
that has been responsible for all of the terrorism.
    All of the failed attempts, all the successful attempts 
most of its criminality tend--really, tend to go back to the 
ESO, also known as the IJO.
    There is broad disagreement within the U.S. Government as 
to what that organization does, what it is, who is affiliated 
with it. We need to all be on the same page and there needs to 
be a networked plan for figuring out how to better go after 
that.
    Anti-illicit finance measures--Hezbollah activity in 
Venezuela, Colombia, Mexico, and Brazil has been linked 
directly to several drug related trade-based money laundering 
schemes, which I think we are all familiar with. All of these 
were--the key point to take away in this is all roads generally 
lead back to Lebanon.
    One of the things I would recommend is enhancing the role 
of Treasury not only in designations but resume the overseas 
presence of the Treasury where they can kind of roll up their 
sleeves and be involved in financial investigations, building 
that Treasury attache for us but as long--but with the idea of 
having a more of a systematic approach to financial targeting 
and criminal disruption.
    Hezbollah's finances within the Lebanese banking system 
have been widely exposed. Lebanese-Canadian banking--the 
Canadian bank case was a very good example of it. The degree of 
vulnerability, I think, is underestimated.
    We need to give Treasury more latitude to actually put 
pressure on that banking system in order to change Lebanon--
Lebanese Hezbollah's behavior.
    Software initiatives--one of the things I mentioned the 
Supreme Leader and senior Iranians conservatives in their 
government consistently refer to the software from the United 
States as being the single biggest threat to the Islamic 
Republic.
    One of the things that I think we need to do is a much 
better job of exposing and trying to neutralize its nonofficial 
cover organizations, its religious, cultural and charitable 
organizations, and the businesses that effectively blur the 
lines between its official and its unofficial activities.
    I would also focus on transnational organized crime. Again, 
Hezbollah has become a global criminal enterprise. It is a 
shadow of its former self. Mughniyah and the others, some of 
the key founding members of the ESO, had this in mind 25 years 
ago.
    It has blossomed into a global commercial network that 
leads back to the Jihad Council and the decision-making 
apparatus in Lebanon is responsible for the worst attacks and 
the kinetic activities that we are all concerned about, 
particularly in this hemisphere.
    Finally, I think that the U.S. needs to find creative 
incentives for working with our liaison partners across the 
region, whether it is Uruguay, Argentina, Brazil. I don't think 
that our good old fashioned military-to-military or intel-to-
intel relationships are enough.
    I think that we need to do better to incentivize our 
foreign liaison partners to go after Iran. I served across the 
region and what I saw was a willingness to do that, but without 
properly incentivizing our partners to actually take the risks 
of engaging in higher impact operations against these types of 
threats, which are higher priority to us than they are to them, 
there is a limit to what we can do down there.
    One of the things that I have always focused on and I have 
always talked about is the Rewards for Justice program. 
Generally, in my experience people do things--corruption is 
rampant almost everywhere in Latin America from what we saw.
    The Rewards for Justice program could be something that 
could be effectively used in a positive way to further 
incentivize policemen, intelligence officers, the foreign 
governments that are working closely with us against these 
threats.
    In conclusion, I would just say with or without a nuclear 
deal I don't think this regime is going to change. The 
conservative establishment that has been there since the 
beginning is still in power.
    You are starting to see more maneuvering behind the scenes 
with regard to the Supreme Leader and his upcoming succession 
transition. He has been given 18 to 24 months to live. Cancer--
his prostate cancer has apparently metastasized.
    So the assembly of experts, the body responsible for 
choosing the next Supreme Leader, has already--he has already 
started to make--he has already started to position people in 
that body that are going to ensure that the succession goes 
toward--leans toward the hardliners.
    So a number of things that are being done inside the 
apparatus are only going to verify that this externalization of 
the Islamic regime is going to go on.
    [The prepared statement of Mr. Modell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. I appreciate those questions and we can get 
into that a little bit more going forward.
    I will recognize Mr. Shifter for 5 minutes.

  STATEMENT OF MR. MICHAEL SHIFTER, PRESIDENT, INTER-AMERICAN 
                            DIALOGUE

    Mr. Shifter. Thank you very much, Chairman Duncan, Chairman 
Ros-Lehtinen, Ranking Member Sires. It is a pleasure to be here 
this morning and I appreciate the opportunity to share some of 
my views about Iran's agenda in the Western Hemisphere.
    Let me start by saying that this is an issue that needs to 
be taken seriously. No one has any illusions about the nature 
of the Iranian regime and its history in flouting international 
law, supporting terrorist groups, threatening Israel and 
violating U.N. resolutions in its nuclear program.
    When it comes to Iran's role and influence in the Western 
Hemisphere, we need to keep our eyes wide open and be vigilant. 
Some of Iran's allies--some of Iran's ties in the region are of 
concern including its relationship with Venezuela, the 
allegations in the Nisman case in Argentina, and Brazil's 
previous support for Iran's nuclear program.
    But in my judgment, these do not amount to very much and, 
if anything, since I last appeared before the House Committee 
on Foreign Affairs over 3 years ago, the situation has 
improved.
    The good news in the region in this regard is overwhelming. 
Iran has little real influence in the region today and what 
influence it had has declined in the recent period.
    There is no evidence that Latin America has an interest in 
aligning itself strategically with Iran. That would be 
irrational and counter-productive for a region that over the 
last decade has moved forward in many respects.
    If we consider Iran's main entry point in Latin America 
Venezuela, while the geopolitical alliance between the two 
countries remains, the relationship today is weaker than it was 
a few years ago when Chavez and Ahmadinejad were in charge.
    Many of the development projects announced between Iran and 
Venezuela along with Bolivia, Nicaragua, and Ecuador have 
simply not materialized. Although Brazil is Iran's largest 
trading partner in Latin America, the political relationship 
has cooled.
    To be sure, the Brazilian Government took a stand 
supporting Iran's position on the nuclear program in 2008. But 
today, 7 years later, there is a distance between the two 
governments and President Rousseff has criticized Iran's human 
rights record.
    There have been reports and allegations in the past about 
Iranian agents sponsoring training camps for terrorists in 
Latin America and Iranian support for prospecting uranium in 
Venezuela and Ecuador. But these remain unsubstantiated.
    In Argentina, prosecutor Alberto Nisman accused President 
Kirchner of trying to shield Iran in the investigation of 
involvement in the bombing of the Israeli Embassy. I was in 
Argentina in Buenos Aires when that Embassy was bombed, just a 
few blocks from the Embassy back then, and in AMIA in 1994 that 
killed 85 people.
    Nisman was found dead right before he was set to testify 
before the Argentine Congress. But even if one accepts Nisman's 
troubling report that Argentina and Iran were negotiating an 
exoneration of Iran in the 1994 attack in exchange for 
increased trade relations, this does not necessarily show a 
growing influence of Iran in Argentina or the wider region.
    The circumstances of Nisman's death remain mysterious but 
so far there is nothing to indicate that Iran was involved in 
any way.
    There have also been more plausible allegations of money 
laundering through the region's banks to finance Hezbollah 
activity. But this is a fundamental problem not just related to 
Iran's role and influence in Latin America but is much broader.
    In my judgement, the time, effort, and resources that are 
being spent on the subject of Iranian intervention in the 
Western Hemisphere should, rather, be devoted to proactive 
engagement and support around the very real security issues 
that Latin America is confronting today--a robust drug trade 
and other illicit commerce, an epidemic of violence and crime, 
a deteriorating political, economic, and human rights situation 
in Venezuela, and widespread corruption and state weakness.
    These are critical questions that risk being neglected when 
we focus all of our attention on Iran. Indeed, the best way for 
Washington to address concern about Iran's role in the 
hemisphere is to help improve the capacity and effectiveness of 
Latin American governance to protect their citizens against 
varied sources of insecurity and instability.
    That is where we should place our policy priority. Issues 
of organized crime and governance challenge need greater 
attention and enhanced cooperation from Washington.
    Thank you very much.
    [The prepared statement of Mr. Shifter follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Duncan. I want to thank the--all four of the panelists 
for great testimony and I will begin with the question period.
    First off, let me say, Mr. Humire, your written testimony 
is chock full of information. Thank you for your longstanding 
work into this issue and you provide me a lot of information. I 
will come back to you in just a second with some questions.
    But as I was reading and listening to Mr. Lopez-Dolz's 
testimony, I was in Peru in November and I understand the 
vastness of the country and the different--jungle, mountains, 
desert--all the elements. And thank you for your service there.
    But it is interesting. You were the Minister of Interior in 
2006. Were you aware of Iran's activity at that point in time?
    Mr. Lopez-Dolz. When I was Vice Minister of Interior, I 
didn't have a sign of Iran at the beginning. After a few months 
and a few weeks in the position, I started to see some relation 
but not something to pay too much attention.
    We were more concerned about other houses--more about the 
Venezuelan Government's involvement in these organizations. 
Iran's presence was not clear at this time.
    Mr. Duncan. Do some of the cultural centers that General 
Kelly talks about, the general commander of SOUTHCOM, are they 
located in Peru? Are you aware of any of that? I am just 
curious.
    Mr. Lopez-Dolz. At least one that I know. The name is 
Inkarri Islam. It is a mix between Islam and Inkarri. Inkarri 
is a myth of Southern Andes culture about an Incan will be 
reborn and free the people from any kind of oppressor. Similar 
to another myth from the followers of Ali, one of the sons of 
Muhammad, and they mix both and use it to recruit people in the 
center.
    Mr. Duncan. Not putting you on the spot but in 2012-2013 
are you aware that--of any conversations elements of the 
Department of State had with Peruvian officials about the 
Iranian threat as part of their application of the law to 
counter the Iranian threat and do an assessment? Do you know if 
they have contacted any Peruvian officials?
    Mr. Lopez-Dolz. I don't know if in 2012 or 2013. But right 
now, there is some contact between the American Embassy and the 
special task--small special task force to Interpol in the case 
of international terrorists.
    Actually, now, clearly, they are in contact.
    Mr. Duncan. Right. Okay. Thank you.
    Mr. Humire, given the recent events with attempted attacks 
in Peru but also Uruguay, the Iranian-Argentine scandal this 
last week, do you agree with the State Department's assessment 
that Iranian influence is waning in the hemisphere?
    Mr. Humire. Thank you, Mr. Chairman.
    No, I don't agree. I think the State Department's 
assessment when it came out--at least the public portion that 
came out the annex--lacked the depth and the seriousness to 
really examine this issue and offer some type of insight.
    The work I have done there is plenty that you can get on 
the granular level to look at anecdotal evidence of this. But 
if you look at the strategic level on pretty much every 
indicator, even if you look at the indicators of what is out 
there in the public, the agreements in the trade and 
everything, there is an increase.
    There is a marked increase. But those aren't the indicators 
that I think are particularly worrisome. The most worrisome 
indicators is what they are not telling you that they are 
doing.
    So when they create a factory, say, in Venezuela or they 
create a cement plant in Bolivia and those factories don't 
produce anything or don't create cement, what are they doing?
    Some wisdom--conventional wisdom might say okay, they are 
just politically posturing. But my evidence suggests that they 
serve a dual function, a dual purpose, and it is that other 
function that we need to examine.
    So I think that has been the focus of my research and what 
you are seeing Iran's influence today as it was yesterday when 
Ahmadinejad was in power is that it is expanding beyond the 
ALBA nations. The ALBA bloc as a political power project is 
weakened.
    But the sentiments that brought the ALBA to power in Latin 
America--the anti-U.S. sentiments, the--specifically the anti-
Israel sentiments--are stronger than ever throughout the 
region.
    And Cuba and Venezuela have a new political soapbox now to 
project this influence called the CELAC and Iran, under 
Rouhani, has made a concerted effort to align himself closer to 
that kind of narrative, moving into countries like Peru, 
countries like Chile, and even countries like Mexico and El 
Salvador, which are not typically ALBA-associated nations.
    Mr. Duncan. I mean, you can understand the sympathy with 
especially Chavez in power with ALBA countries and the ties 
there that possibly Chavez opened some doors in the ALBA 
countries for Iran as he furthered that relationship.
    But let me delve into the Veja report for just a minute, 
which I thought was fascinating. I don't know--I am still 
reading it and chewing on whether, you know, it is factual. I 
want to go a little bit further on that.
    But in that Veja report--article it talks about Iran trying 
to procure some nuclear capability, intelligence research 
components, whatever. I just find that hard to believe in that 
Iran seems to me like they are further down the road than that 
and why would they not go to Pakistan or somewhere like that to 
get that versus a relationship with Argentina.
    So is there anything else that Iran may have been going--
interested in that Argentina could provide?
    Mr. Humire. Well, there is two major strategic programs 
that you have to look at when you examine Iran. One is the one 
that is the most paid attention to here in Washington which is 
the nuclear program.
    The other is their ballistic missile program. These aren't 
mutually exclusive, of course. But raw materials that are 
perhaps needed for the ballistic missile program sometimes 
aren't always needed for their nuclear program and Latin 
America has an abundance of these raw materials. Argentina, 
Bolivia, Brazil--all these countries have an abundance of 
minerals that have dual-use functions. They have commercial 
applications----
    Mr. Duncan. Would you say Argentina has long-range missile 
technology or expertise in any way for a payload delivery 
system?
    Mr. Humire. They have medium range missile technology. From 
my understanding they don't have an intercontinental ballistic 
missile or any of that kind of know-how.
    Mr. Duncan. Right. Okay. Lord, there is just so much to 
ask. Let me ask this of Mr. Lopez-Dolz. Do you have any 
additional information surrounding the recent incidents in 
Uruguay and what does this event show about Iran's activities?
    Because that is probably the most recent. Assuming that 
Iran wasn't involved in Alberto Nisman's demise, Uruguay was 
one of the most recent incidents. Do you have anything to point 
to--Iranian activity, Hezbollah's activity--with relation to 
that?
    Mr. Lopez-Dolz. We don't have information about--I don't 
have information if there is a connection or there is not a 
connection with the cells. We are not sure yet because he was 
captured very soon and the information was released to the 
press pretty soon. So when information was public, if there 
wasn't something that they were hiding, there is no single 
piece of information to know who is with him.
    But what is important to remark is he was manipulating 
explosives. Not weapons, not ammunition, something that you 
could expect to wait for some time to use it all or sending it 
across the border.
    When you manipulate explosives in a big city, as Lima, with 
millions of inhabitants, it means will they use it or somebody 
else. We don't know who. We don't know the target and they 
have--I think they have this explosives ready to use. We don't 
know when and we don't--and we don't know against what.
    Mr. Duncan. Yes. I was asking about Uruguay, though, if you 
knew of anything about Uruguay and the recent bombing attempt 
there or on the Israeli Embassy, in Uruguay.
    Mr. Lopez-Dolz. No, I don't have more information about it. 
I read it in the press.
    Mr. Duncan. Okay. Thank you.
    So I will just stop and hopefully we will have a second 
round of questioning and I will recognize the ranking member, 
Mr. Sires.
    Mr. Sires. You know, one of the hearings that we had here, 
some of the people that came and spoke before this committee, 
mentioned that Iran had a number of flights into Venezuela per 
week, and they were delivering crates and so forth.
    I was just wondering if you have any information as of late 
whether those flights are still going in and out of Venezuela, 
whoever--I guess you don't.
    Mr. Humire. No. The flights, from my knowledge, Mr. Sires, 
stopped in the end of 2010, beginning of 2011. But it should be 
noted that the President of Venezuela, Nicolas Maduro, in his 
last trip to Iran late last year asked President Rouhani if 
they could resume that flight.
    It is not clear whether he agreed or what his response was. 
But that flight that existed for about 3 years nobody knows as 
to what exactly was in the contents. There is rumors of drugs, 
explosives, terrorists and other.
    But I can tell you that the flight, which was a commercial 
flight, lost more than $30 million in those 3 years and those 
$30 million were subsidized by the Venezuelan Ministry of 
Mines, which you have no--which doesn't make sense. It would 
have been subsidized by the transportation ministry. But there 
was something very nefarious going on with that flight.
    Mr. Sires. Anybody else?
    Mr. Modell. Mr. Sires, the only thing I would add to that 
is a meeting in the Iranian Supreme Council on national 
security where they discussed the use of Mahan and other--and 
Iran Air and other airlines for the purpose of transporting 
lethal supplies and other forms of aid to Syria and to Iraq, 
and have considered the use of it in non-geostrategic areas 
like Latin America and Africa.
    Mr. Sires. Anybody else? Mr. Shifter?
    Mr. Shifter. Thank you.
    The only thing I would say is that, you know, if one reads 
all the press reports and media accounts there was a lot of 
attention paid to this a few years ago and, I mean, I follow it 
pretty closely.
    I haven't seen anything on these flights. Doesn't mean it 
doesn't exist but, you know, that does suggest that there were 
a lot of people that were following this and writing about it 
that no longer is out there.
    Mr. Sires. Mr. Shifter, I just wonder if you know anything 
about the relation between Hezbollah with the Colombian 
guerillas and the Mexican drug traffickers' organization.
    Mr. Shifter. I think there have been--as I said in my 
testimony, I think--Mr. Sires, I think that the main connection 
there is through--is through money laundering for support of--
these are groups, obviously, that are very wealthy through the 
drug trade and what concerns me is their connections through 
money laundering--they are supporting some of the groups in the 
Middle East.
    I think that is the main connection and I think, you know, 
that is something that we are aware of and we need to address 
and I think the governments in Colombia and Mexico that are 
concerned about--we haven't talked about the government--the 
regional governments.
    But they are, obviously, worried about their own security 
and are also focusing on this effort. So I think that is the 
connection that concerns me and I think we need to do more.
    Mr. Sires. Anybody?
    Mr. Modell. Congressman, I would just suggest that you have 
a series of briefings with DEA if you haven't already to 
discuss the links between several senior Hezbollah members who 
are currently residing in Lebanon because they have to reside 
in Lebanon who were previously based in Mexico and Venezuela 
and places like Colombia where the cartels operate.
    There have been a number of high-profile cocaine busts, 
drug stoppages, investigations that have led back to Hezbollah. 
The only question is to what extent was Hezbollah 
institutionalizing--was there an institutional program on the 
part of the Hezbollah leadership council with regard to its 
involvement in drug trafficking.
    But DEA can give you a long list of Hezbollah affiliation 
with drug-related activities in Latin America that will 
actually pertain to trade-based money laundering that not only 
expands into Latin America but goes into--deep into West Africa 
as well.
    Mr. Humire. Mr. Sires, I agree with Mr. Shifter. There is a 
huge laundering component. But the question you have to ask is 
who is the one doing the laundering.
    One of the connections to the FARC and Hezbollah resides in 
Venezuela. The current governor of a very important state in 
the northern Caribbean coast called Aragua is a gentleman named 
Tareck El Aissami.
    He is connected through Hezbollah to the former 
intelligence director, Hugo Carvajal, that was detained through 
the U.S. authorities in Aruba and he is connected to Hezbollah 
through his--through his financial network. This is a clear 
connection with the Venezuelan Government that links the FARC 
with Hezbollah.
    There is probably more connections but that is one that has 
been relatively looked at publicly that I know our law 
enforcement and intelligence officials are examining very 
closely.
    Mr. Sires. And I was just wondering if you know where the 
investigation is to the prosecutor in Argentina today. Is it 
done? It just went by the wayside or is there any effort? Does 
anybody--where is that at?
    Mr. Humire. The investigation on his death?
    Mr. Sires. Yes, the circumstances of his death.
    Mr. Humire. It is still ongoing. My understanding is that 
they asked for a second autopsy and they are proceeding the 
investigation on the circumstances around his death.
    Mr. Sires. Okay. Thank you. My time is up.
    Mr. Duncan. I thank the gentleman.
    Ms. Ros-Lehtinen had to leave. Just for the committee 
members, there was a terrorist attack in Tunis, Tunisia. I know 
of 12, I believe, people killed, 17 wounded, and I am sure that 
is part of why she had to leave. But I just wanted to let you 
be aware of that.
    I will now recognize Mr. Weber from Texas for 5 minutes.
    Mr. Weber. Thank you, Mr. Chairman.
    Mr. Modell--is that how you pronounce your name? You said 
earlier that there seems to be a government-wide lack of 
attention to this connection in South America. Can you 
elaborate on that?
    Mr. Modell. Are you referring to the governmen- wide lack 
of attention to Iran and Hezbollah in Latin America?
    Mr. Weber. Correct.
    Mr. Modell. When you look at most of the government--let me 
just reiterate--when you look at most of the government 
agencies and what they are doing based out of Embassies and 
other activities throughout Latin America, I would say that 
most of them recognize that Iran is an important thing to be 
looking at.
    But there are some exceptions. I think it was mentioned 
that the State Department has neglected Iran. I mean, if you 
worked at an average Embassy and you watch what the Embassy--
political officers are doing, what the Ambassador is doing, for 
the last 10 years for the most part they avoid Iran at all 
costs.
    So that is not necessarily true in the intelligence 
business and the defense business. But the point I wanted to 
make wasn't necessarily that it was being totally neglected but 
that there wasn't a very well thought out networked plan and 
approach to figuring out what the true threats of Iran and 
Hezbollah are across the region and how do--and whatever 
residual elements have been left behind over the years by their 
attempts to build infrastructure----
    Mr. Weber. You are talking about the United States 
government-wide?
    Mr. Modell. Exactly right. Yes. I am talking about the U.S. 
Government agencies who are operating outside the United States 
in Latin America who are trying to address threats posed by 
Iran and Lebanese Hezbollah.
    Mr. Weber. That is not very encouraging.
    Mr. Modell. I would agree. Let me make one--let me make one 
other point. I would agree with Mr. Shifter in one sense.
    In terms of a geostrategic alliance--I mean, people are 
wondering. You know, while Iran has pulled off some, you know, 
obviously, some bombings and they have done some horrible 
things and we have foiled a lot of their plots across the 
Western Hemisphere, is there a geostrategic alliance that has 
formed between Latin American governments and Iran?
    I would say with the exception of maybe Venezuela and a few 
of the ALBA countries that Joseph mentioned I would say no. 
They have very little in common.
    But what is more striking to me is when you have--we have 
an Iranian Ambassador, for instance, in 2005 who shows up on a 
country like Mexico and he tells the Mexican Government that 
his main priorities in that country during his tenure are to 
proselytize and spread Twelver Shi'a Islam in a country that 
is--it is 99.9 percent Catholic.
    Nevertheless, they are headstrong and they are going to 
push their form of Islam in that country. And the other 
objective that they had, according to this Ambassador, was to 
break the relationship between Mexico and the United States. 
So, obviously, incredibly unrealistic.
    No foundation for geostrategic alliance but the point isn't 
necessarily that he was--that Iran is on the verge to actually 
succeeding in that. It is that they are headstrong and they are 
willing to push and----
    Mr. Weber. Hold that thought. I appreciate you going there, 
and I am going to go to Mr. Shifter next.
    Having heard that, Mr. Shifter, you know, you made the 
statement earlier that you didn't see that overall alliance, 
basically. But let us talk about fraudulent documents.
    It has been reported that several countries in Latin 
America have provided fraudulent documents for Islamic 
radicals--passports, national ID cards, birth certificates, et 
cetera. Are you aware of those reports?
    Mr. Shifter. To those reports, yes.
    Mr. Weber. Do you have--is it--are they true? Do you have 
any information, any background?
    Mr. Shifter. I can't verify those reports but if--you know, 
I wouldn't be shocked if they were true. I think that--you 
know, the reports of fraudulent passports of that for lots of 
governments and they need to be investigated and I think they 
need to be seen what is the significance of that, what are----
    Mr. Weber. So you don't seem to think it is a concern, 
this--apparently, as Mr. Modell just described, a growing 
alliance with no other--if no other purpose with the intent to 
divide America or United States and Mexico. You don't seem to 
be concerned about that kind of alliance.
    Mr. Shifter. I don't think strategically it is of concern. 
I think these incidents of the passports and the other 
fraudulent documents are of concern. They are always of concern 
for any government.
    But I don't think that one should exaggerate the threat 
that that poses to----
    Mr. Weber. Well, what I think when there is Islamic 
militants who have created a kind of mayhem that they have, I 
mean, how do you exaggerate those who are intent on killing 
men, women and children, in some instances with suicide 
bombers? That is a pretty heavy threat. I mean, how do you 
exaggerate that?
    Mr. Shifter. Well, I think that--I think that if you look 
at from country to country there have been mentioned--leaving 
aside Venezuela but if you look at Mexico and Peru and Colombia 
these are all countries with governments that are committed to 
trying to improve the security situation.
    Mr. Weber. Well, they are but----
    Mr. Shifter. They are more concerned than we should be.
    Mr. Weber [continuing]. Well, we happen to have less than--
someone called it a porous border between--I was--in the Texas 
legislature I was the vice chairman of the borders committee.
    I can tell you how porous the border is in many instances. 
So the fact that we have Islamic militants that are getting 
forged documents and coming up into the country just to the 
south of us how would you mitigate that?
    Mr. Shifter. I think there must--has to be a much stronger 
pressure and more cooperation to try to guard against that. I 
agree that that is a concern. I share that. But I don't think 
that we should--I don't think it poses a major threat to the 
United States.
    I think these are specific questions that need to be 
addressed that should be addressed, and I wanted to make that 
point in my testimony that there are things that are troubling 
and this troubles me.
    But I don't think it means--I don't think we should--we 
should take it beyond what the evidence suggests.
    Mr. Weber. You don't think it is a major threat? So if nine 
people--I think, Mr. Chairman, was it Tunisia--were killed or 
12, whatever the total is--if nine or 12 were killed in the 
United States then that is not a major threat?
    Mr. Shifter. If they were killed in the United States it 
would be a very, very significant and troubling event.
    Mr. Weber. Okay. I yield back. Thank you.
    Mr. Duncan. I thank the gentleman.
    I think if you talk to Paraguayans they would tell you that 
there are a lot of false documents that are transferred between 
Lebanese that are traveling in other Tri-Border region.
    I think it is very prolific there. The question, I think, 
the gentleman was trying to get to is Venezuela's role--what 
Chavez may have provided to the Iranians on the flights that 
went from Caracas to Tehran and where terrorists or other 
Iranian operatives may have been able to travel on Venezuelan 
documents and other things. I think that is something to delve 
into. I think that is what the gentleman was getting to.
    So with that, I will recognize Mr. Deutch from Florida for 
5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Humire--is that right? You spoke as the chairman did of 
the Brazilian newspaper article that alleged Iran and Venezuela 
were part of a scheme aimed at restarting nuclear cooperation 
between Iran and Argentina.
    The report is based on three high-ranking former officials 
of the government of Hugo Chavez, all of whom are now in the 
United States and requested asylum in this country.
    According to three officials, on January 13th, 2007, 
Iranian President Ahmadinejad asked Venezuelan President Chavez 
for assistance in securing nuclear cooperation from Argentina 
and in dissuading Argentina from pursuing Interpol Red Notices, 
which are akin to arrest warrants in connection with the 
bombing of the AMIA Jewish Center, Buenos Aires.
    I just got a few questions based on that article. First of 
all, what is your assessment of Prosecutor Nisman's complaint 
that Argentina was seeking to absolve Iran of responsibility in 
the AMIA attack?
    Mr. Humire. I think Dr. Nisman is probably the most 
credible Latin American governing official that has worked on 
the portfolio of Iran in Latin America. Not just in Argentina, 
in general. His report in 2013 provided a lot of details about 
seven countries that had the same kind of activity.
    Dr. Nisman's most recent report was--unfortunately, was not 
surprising because our independent investigation came to very 
similar conclusions. Argentina's economic deficits puts them in 
a very vulnerable position. Even if they say they don't want to 
align themselves with Iran, they may have to out of necessity.
    Argentina did align themselves with Venezuela because they 
needed energy, because they needed help financially. We know 
that the former President, Hugo Chavez, authorized the purchase 
of almost $10 billion worth of Argentine debt. That gives him 
an inordinate amount of influence and that could be 
triangulated toward Iran.
    Mr. Deutch. So you don't have any--you don't have any 
reason to believe that Prosecutor Nisman was operating at the 
request of interested parties and not simply following the 
evidence?
    Mr. Humire. The only interested party that I know that he 
had in his mind was the AMIA victims and he spoke about them 
quite frequently and he sought justice and truth for the case 
in Argentina.
    Mr. Deutch. Interpol said that no official requests have 
been made to cancel the Red Notices. So on what basis then 
would Nisman have said that Iran sought to lift them?
    Mr. Humire. Well, I mean, one thing is what the Argentine 
Government can do and another thing is what they promise Iran. 
You know, they might make promises that they can't actually 
deliver but they will make those promises to get whatever 
benefits that they can receive.
    I am not--I can't tell you if they actually made the 
request but Nisman didn't say that they actually were going to 
go through it.
    What he said was that they told Iran that that is what they 
were going to do and that is based on wiretaps so there is 
audio recording evidence and that is also based on eyewitness 
accounts. So he had the evidence to make those statements.
    Mr. Deutch. And the Foreign Minister Timerman said that 
Argentina's refineries wouldn't be able to process the high 
sulfuric content of Iran's crude oil and therefore, he has 
claimed, that Nisman's allegations on that front couldn't be 
true. How do you respond to his rebuttal?
    Mr. Humire. Again, this is--these are not the purpose of 
what Nisman--he wasn't trying to make a sophisticated case as 
to what Argentina could actually get.
    He is only telling you what they told them. Argentina has 
energy agreements with other countries--Brazil, Bolivia, 
Venezuela--where they perhaps could get the refineries they 
need to get the crude.
    I couldn't tell you if that is what they actually are going 
to do. But there was triangulation with a lot of their 
activities with Iran, not just with Venezuela. Perhaps with 
Bolivia as well.
    Mr. Deutch. And do you know how Argentina would be able to 
share nuclear information or material with Iran, considering 
the sanctions that are in place on Iran?
    Mr. Humire. I would say it would be a third-party country, 
most importantly through Venezuela. At the same time that 
Argentina started to become more active with Iran they became 
more active with Venezuela, especially on the financial level 
and also through social projects--projects that actually never 
were completed but yet the money was still being moved between 
two countries.
    They would have to shield this through other activities, 
through other projects that perhaps wouldn't get the scrutiny 
that would a military project or something else.
    Mr. Deutch. And, finally, what has to happen in order for 
us to ensure that the work that Nisman did is not lost and that 
it is seen through?
    Mr. Humire. I think one of the things that Dr. Nisman was 
really focused on was how to take the AMIA case and 
particularly the Iranian accused to be focused on the 
international level.
    The Red Notices for him just didn't work because in order 
for that to happen the Iranian Government would have to arrest 
their own accused and send them for custody. He knew that was 
never going to happen.
    However, if he was able to move the case to a third party 
court international--on an international level, perhaps the 
United Nations, they can maybe obligate not as--perhaps as a--I 
am sorry, not as a accused but as a witness to another crime, 
perhaps a criminal conspiracy.
    So in my opinion, Dr. Nisman knew that in order for the 
AMIA case--in order for the conspiracy in Argentina to be paid 
attention to, he had to take it to a higher level to the 
international community.
    Mr. Deutch. Great. I really appreciate your insight. Thanks 
for being here and thank you, Mr. Chairman. I yield back.
    Mr. Weber. I thank the gentleman.
    The gentlelady from Illinois is recognized for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair, and thank you and Ranking 
Member Sires and Deutch and the witnesses here today.
    The State Department has maintained for a number of years, 
as you know, in its annual terrorism report that there are no 
operational cells of al-Qaeda or Hezbollah in the hemisphere 
but that ideological sympathizers in the region provide 
financial support to these and other terrorist groups in the 
Middle East and South Asia.
    In contrast, as we have talked about a little bit, General 
John Kelly has maintained in the SOUTHCOM's 2014 posture 
statement that he remains concerned that Hezbollah maintains an 
operational presence in the region.
    In your opinion, what accounts for the apparent discord 
between the State Department's terrorism report and SOUTHCOM'S 
2104 posture? Why is there a difference of opinion? Anyone who 
dares.
    Mr. Modell. Based on my own experience in the region, I can 
tell you that people focus on different things. Going back to 
the issue of false documentation in the region, one of the 
things that Hezbollah has developed a very, very good skill in 
is counterfeiting--counterfeiting false documentation and they 
have long relied on Latin America not necessarily as a base of 
terrorist operations but as a fund-raising center.
    So whether you are talking about the Tri-Border area or the 
free trade zones where they have been reportedly active, there 
are certain things that they do very well down there.
    And the U.S.--let me just mention something--the U.S. 
Government needs to get on the same page with the regard to the 
extent of those activities and the extent to which there is a 
very formally approved process between the chain of command in 
Beirut and what goes on in places like the Tri-Border area, the 
extent to which people are actually doing Hezbollah-specific or 
Hezbollah-supported activities.
    But to address the idea that there is a discrepancy between 
the two, again, in my experience in the region, while we were 
very focused on Iran or on Russia and other what we call hard 
targets, State Department wasn't focused on them at all and 
there was a different--there was a fundamental difference in 
their approach and the way they view the problems and the tools 
they had and the resources they had for dealing with it. And 
that--for me, that is the only explanation.
    Ms. Kelly. Thank you.
    Mr. Shifter. Thank you. I would only add that I think there 
is no question--again, I think we have to distinguish between--
in the Tri-Border area there is contraband, there is smuggling, 
there is money laundering, there is illicit commerce, and there 
are Muslim communities there as well.
    Whether there is an operational cell there, I think some of 
it is--you know, one has to have--apply very high standards of 
evidence and make sure that that is confirmed.
    And there may be information that--different kinds of 
information that get to different parts of the U.S. Government 
and they reached different conclusions and I think the State 
Department said, we really want very, very hard 
incontrovertible evidence that there is an operational cell 
before we include it in our report, and whereas perhaps other 
parts of the government say there is a lot of information that 
we are getting that lead us to this conclusion. So there are 
different emphases that happen.
    My own sense and just consulted a lot of people who are 
very familiar with that area say that, you know, there is no 
question that there is enormous, you know, contraband and 
illicit trafficking and there is a big Muslim community. But 
whether there is an operational cell there is still not yet 
substantiated.
    Ms. Kelly. Thank you.
    Beyond Hezbollah, is there evidence to suggest that there 
is other extra-hemisphere foreign terrorist organizations that 
maintain operational presence in Latin America and the 
Caribbean--and/or the Caribbean?
    Mr. Shifter. Terrorist organizations?
    Ms. Kelly. Mm-hmm.
    Mr. Shifter. Not that I am aware of.
    Mr. Humire. Ms. Kelly, yes. To answer your question, there 
is operational intelligence--operational presence of other 
foreign terrorist organizations even though they are Islamic 
terrorist organizations.
    The case in 2007 that was a thwarted plot against the John 
F. Kennedy International Airport--that is a very interesting 
case to study because here you have a Sunni Islamic terrorist 
group, Jamaat al-Muslimeen, in Trinidad cooperating with the 
Shi'a imam and political figure in Guyana to coordinate an 
attack against a U.S. target.
    The Caribbean has a lot of this type of activity that is 
not particularly always Iranian funded or supported that is 
supported by other elements and other groups that are looking 
also at different type of terrorist operations.
    But I also want to make a quick point on your earlier 
question. There is also a legal distinction that needs to be 
understood and it creates a big vacuum in the region that could 
be a vulnerability for the United States.
    If you are the State Department and you were to call Brazil 
and say, you know, is there a Hezbollah-operated presence in 
your country, they will say no and they would be legally 
correct because they don't distinguish legally Hezbollah as a 
foreign terrorist organization.
    Until Hezbollah commits a crime or a member of Hezbollah 
commits a crime--narcotrafficking, extortion or other--they are 
not considered a terrorist in their country, and that legal 
distinction is, I think, what causes some of the confusion.
    When people on the ground like, perhaps, people in Southern 
Command or special operations commander or other, are seeing 
some of the same individuals that they see are on watch lists 
in other parts of the world operating in those countries they 
don't make those legal distinctions and so they understand that 
there is a Hezbollah presence.
    But there is a vacuum in Latin America with anti-terror 
legislation. They don't look at Islamic extremism the way we 
look at it and so that causes some of that confusion.
    Ms. Kelly. My time is up.
    Mr. Duncan. The gentlelady's time has expired. Thank you--a 
great question. The chair will--okay. The chair will recognize 
Mr. Weber. Mr. Yoho--I am sorry. Mr. Yoho from Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Gentlemen, I appreciate you being here and your testimony, 
and this is something that I think we are all very well 
concerned with what is going on in our Western Hemisphere and I 
think it is something that has been overlooked.
    I want to reference--go back to the State Department 
request for the report on the Western Hemisphere, and they 
finally reported in 2012--they gave a report and it says--it 
found that Iran's influence in the Western Hemisphere was 
waning.
    And if so, if that was--do you feel that was true back then 
in 2012 when the report came out from the State Department 
about the influence of Iran and Hezbollah in the Western 
Hemisphere? Was it waning?
    Mr. Modell. I thank you for your question.
    You know, in 2012--between 2012 and today, budgets at the 
Iranian Government as for any types of activities whether you 
are talking about in their own immediate back yard in Iraq and 
Syria, intelligence activities further afield in Africa and 
Latin America, have gone drastically down.
    So has their influence gone down? I would point out there 
was mentioned earlier today Mr. Rabbani, the guy who was the 
Iranian cultural attache at the time in the bombing in 1994 who 
has since remained in Iran and reportedly left a few times here 
and there--that he is still doing--but he is in charge of a 
network of people that the Iranian Government relies on, 
whether they are people who have gone--who are running mosques, 
cultural centers and so forth, throughout Iran. So--go ahead.
    Mr. Yoho. Well, that is what I wanted to ask you. I mean, 
if they are waning but they are building mosques at the time 
and they are donating $800,000 to the Argentinian President--
Presidential race, it seems like their influence was pretty 
strong and we know that.
    So to say it was waning I think was a mischaracterization, 
and they had a report and it says in this here that they can 
only submit five pages back to Congress, which is very 
limiting.
    It would be like, you know, having a cake recipe and you 
only can do three pages of it or, you know, three sentences of 
how to make that and then the rest is on your own.
    It just seems very limiting. So I feel like they have been 
growing and it just wasn't a correct conclusion. Mr. Humire?
    Mr. Humire. Correct, Mr. Yoho.
    The--you know, there was some evidence to say that perhaps 
they were maintaining. But I will give you a point that 
supports the evidence that they are growing. This was mentioned 
just a minute ago.
    The commander, Southern Command General John Kelly, just 
testified before Congress saying that there is 70 culture 
centers or 80 culture centers----
    Mr. Yoho. Right.
    Mr. Humire [continuing]. In Latin America. In 2012, the 
former commander of Southern Command, Doug Fraser, testified 
that there was 36. That is a 55-percent increase, and those 
culture centers are what is linked to those influence 
operations.
    The gentleman that Mr. Modell mentioned, Mohsen Rabbani, 
has a network of disciples in Latin America that are in charge 
of those operations.
    Mr. Yoho. Right.
    Mr. Humire. That number has multiplied. So if you talk 
about terms of influence, there is more agents of influence. 
There is more access of influence and these individuals are the 
ones that make contacts with the host governments.
    Mr. Yoho. Is there a Muslim-practicing population 
sufficient enough to warrant 80 mosques in Latin America?
    Mr. Modell. I would point out one thing with regard to the 
80 mosques and the cultural centers, and I agree with Joseph 
that they have expanded those efforts.
    Mr. Rabbani invites people from all over Latin America to 
come in and do training courses and learn about Islam, and then 
he has this leave behind--this sort of operational force or 
influence force around Latin America.
    I would say no. In most cases, they would be happy to take 
any person who walks through the door who expresses even the 
smallest willingness to learn about Islam.
    Mr. Yoho. Right.
    Mr. Modell. And then they are happy to say hey, go run our 
cultural center or our mosque. And I am not suggesting that 
that is not influential or dangerous or maybe something needs 
to be monitored. But it is very tenuous and to call it an 
operational cell in a lot of cases is an overstatement.
    Mr. Yoho. I would agree with that, and then I have got a 
minute left here, roughly, and I don't know if you guys have 
touched on that structure in Bolivia that is built by Iran, 
supposedly, and heavily guarded.
    Do you have a feel for what that is or has that already 
been discussed? And if so, I apologize.
    Mr. Humire. I have looked at the facility in great detail. 
I could tell you this. The facility doesn't function the way it 
is supposed to function. It is a military academy of some sort 
for asymmetric warfare but is an academy that doesn't receive 
students, that doesn't have operational presence as far as, 
like, logistics and others.
    Mr. Yoho. How large is that compound or structure?
    Mr. Humire. It is not entirely large. There are more 
administrative buildings--about four buildings. I couldn't tell 
you the exact geographic dimension but it is about four 
administrative.
    Mr. Yoho. I have heard all kinds of theories and rumors 
about it--you know, launch sites and all that. You know, I just 
wanted to make sure it has been looked at well.
    Mr. Humire. Okay.
    Mr. Yoho. Anybody else have an opinion on that?
    I am out of time and I appreciate your testimony. I yield 
back, Mr. Chairman.
    Mr. Duncan. I thank the gentleman.
    One thing I think that is interesting to note is the amount 
of student travel from South American countries to Tehran, and 
based on those cultural centers.
    So Mr. Castro from Texas is recognized.
    Mr. Castro. Well, thank you, Chairman, and thank you to 
each of the witnesses. Thank you for your testimony and for 
your scholarship and work on these issues.
    I think our nation should, of course, be vigilant about any 
kind of growing influence that Iran may have whether it is in 
Latin America, Europe or anywhere else.
    But I guess let me ask you a baseline question. How many 
people have been radicalized in Latin America and gone over to 
fight for, say, in ISIS or in al-Qaeda? Has anybody been 
radicalized that you all know of?
    Mr. Humire. I think there has been individuals in Venezuela 
and several countries in the Caribbean that have gone over to 
Syria to fight. But the numbers aren't significant. They are 
relatively small.
    Mr. Castro. Do we know their names or what impact they have 
had? I know you gave the example of the Guyanese man, of 
course, who has been convicted here for his actions.
    Mr. Humire. Correct.
    Mr. Castro. Is there anybody else that we know of by name?
    Mr. Humire. To that level of such a high profile I don't 
know a specific name but I can tell you that there is a 
criminal terrorist pipeline that has developed through 
Venezuela that sends funds and drugs from Latin America to the 
Middle East and, in turn, sends foreign fighters from the 
Middle East back to Latin America. That pipeline is still 
active today.
    Mr. Castro. Is it safer to say that there have been more 
folks radicalized both in the United States and Europe than 
they have in Latin America?
    Mr. Humire. Correct.
    Mr. Castro. Okay. What would be the advantage to a Latin 
American country? I guess--or let me preface my question by 
reiterating some of the points that have been made.
    Iranian--the Iranian budget is drastically down for some of 
these outreach efforts. Their economy right now is--I don't 
want to say quite in shambles but is going through a very rough 
time. So what is the advantage of a Latin American to cozy up 
to Iran, at least in the period that we find ourselves now?
    Mr. Shifter. Well, Congressman Castro, I don't think there 
is much of an incentive. That is why--precisely why I am trying 
to make the case that although there are concerns and we should 
watch closely, Latin America, you know, wants to be prosperous.
    They want investment. They want democracy. I mean, this is 
a region that is in a very different state and I think that 
this--they are not going to find what Iran has to offer very, 
very attractive, either economically or in any other way.
    So I don't think there are great incentives. There are, 
obviously, a few--a handful of countries we know--they have 
already been mentioned that have more of an anti-U.S. agenda 
and so they will find common cause with Iran because they share 
that to sort of--to curtail the influence of the United States. 
And so the geopolitical--they are joined in sort of a 
geopolitical alliance. Some of that exists. But beyond a few 
countries and beyond that issue, I see very little.
    Mr. Castro. Sure. Yes, sir?
    Mr. Lopez-Dolz. In the case of my country, Peru, the 
advancements that were obtained by radical movements is money 
because in general terms the violent movements in my country 
don't have the money. They obtain some money from drug 
trafficking but any kind of money they receive will be well 
received.
    What I want to remark is the same people that is--they are 
acting--are heads of every single violent movement against any 
kind of legal production or whatever in the deep country, in 
order to preserve the drug trafficking and illegal money is 
that all activity that could be done in this area is the same 
people connected with Iran activity.
    So we will find people who are chiefs of a party or an 
organization leading to FARC, leading to Venezuela, and the 
same are pretty close to those Iranian activities in the area.
    Mr. Castro. Okay. Thank you.
    Chairman, I yield back my time.
    Mr. Duncan. I want to thank the gentleman.
    We are going to enter in a second round, if the gentlemen 
would like to stay. I will recognize myself for 5 minutes.
    Last Congress, the House passed the Hezbollah International 
Financing Prevention Act, which died over in the Senate. It 
targets foreign banks and requires that the administration to 
determine whether Hezbollah is a transnational organized 
criminal significant narcotic trafficker.
    So I would ask this of Mr. Modell, do you believe that this 
legislation could effectively enhance our ability to target 
Hezbollah in Latin America?
    Mr. Modell. I do think it could make a difference. I was--I 
am aware that legislation, and we had some meetings to discuss 
that legislation as it was being formed.
    I think that any time you can put additional pressure on 
the Lebanese banking system to--for them to crack down on 
Hezbollah within Lebanon is going to help and it is going to 
reverberate out.
    I think--I think as far as the U.S. Government that we can 
do in addition to passing legislation anything that enables 
Treasury to have more latitude in pursuing banks, particularly 
with banks that we have already identified, but people are 
concerned that it is going to destabilize the Lebanese banking 
system and they don't want to--they don't want to do anything 
about it, recognizing that, well, it is too bad because we see 
so much IRGC Quds Force or we see so much Syrian money 
illegally going through there. We even see Lebanese bulk cash 
shipments coming from West Africa going right into these banks.
    But yet, it is part of a major banking center within the 
region. We don't want to destabilize it. So if that led--to the 
extent that that legislation can lead to more latitude and 
better tools at our disposal for putting pressure on that 
financially I am entirely in favor of it. I think it could have 
an impact, yes.
    Mr. Duncan. I mean, we have focused on Latin America here 
but the 2012 law was Iran's presence in the Western Hemisphere. 
So we are talking about financial transactions. We can't ignore 
the Canadian Bank and the fact that there is very clearly 
transactions that were going, whether it was money laundering 
and other things.
    And as we mentioned Paraguay earlier, you know, anybody in 
Ciudad del Este, whether it is Paraguayans or others, will tell 
you Hezbollah's activity there, which is financial transactions 
to fund Hezbollah.
    Now, whether it is skimming rents or whether it is, you 
know, contraband that is being sold and I have seen it with my 
own eyes. And so I think you are right. I think that is just--
this would be just another tool and I am going to talk with the 
author about possibly reintroducing that.
    In your written testimony, you make several specific policy 
recommendations for the--Mr. Modell, for the U.S. to consider. 
Of these recommendations, which do you believe has the highest 
priority?
    If you had to rank them, give me the first one or two.
    Mr. Modell. First one or two is the first thing that I 
mentioned today and I would say first--if we are really serious 
and, again, I don't want to overstate the threat.
    I mean, I think that when you have somebody like Rabbani 
or, you know, and other Iranians who have made a consistent 
effort to build networks of influence in Latin America, I don't 
deny that that is going on.
    I don't want to inflate that, though, to a geostrategic 
problem in the region. That said, if I was going to do one 
thing--if I could make one recommendation, distill all of this 
down to one thing, that would be getting everybody on the same 
page.
    I hear a lot of talk about whole of government solutions 
within DoD, and DoD says well, wait a minute--we have got to 
enable whole of government solutions where we are going to work 
with State and we are going to work with the agency and 
everybody else, and rarely does that happen.
    Everybody is pursuing different aspects of the problem set 
and there are working groups that get together--counter threat 
mitigation working groups that get together and they talk about 
problems like Hezbollah and they say, here are our 
transnational criminal organizational problems and nobody 
agrees and nobody is forced to work together, to take it to the 
next level and actually implement steps that are coming to a 
common set of platforms that can last the test of time in a 
place like Latin America.
    And, again, I don't see the hordes coming over the gates, 
you know, coming across the wall. I think that Iran is a 
problem we need to be looking at.
    But it is the leave behind--the residual leave behind 
force--the influence networks that they have that need to be 
better identified and rooted out. But that will require a 
counter network strategy and I don't think we have that.
    Mr. Duncan. Let me--let me ask you on that point. After 9/
11, we saw that stove piping of information was a big factor in 
allowing a terrorist attack to happen on the United States.
    So do you think--I agree with you. DIA, DoD, elements of 
DIA and others--NCTC, CIA, all these elements--should be 
talking with our neighbors, our allies in the hemisphere about 
this real threat. And so I gather from what you said they are 
not, or at least we are not forcing them to come up with a 
comprehensive approach.
    You know, this committee has jurisdiction over State. We 
don't have jurisdiction over DoD, over intel. But I think there 
needs to be an effort to try to make sure there is no stove 
piping of that information because we are going to miss 
something if we do.
    And it may not be an attack on the United States but it may 
be something in our hemisphere that, for our involvement, may 
be able to thwart. Would you agree with that assessment?
    Mr. Modell. I would agree with that assessment, and when 
you look at the people--the men and women in the United States 
Government who are working out of our Embassies around--
throughout the hemisphere, the Ambassador obviously is the 
Chief of Mission and he is the one who gets, you know, the 
country team together and finds out what everybody is working 
on and he tries to drive everyone toward the larger objectives 
of the United States Government in that particular country.
    But one thing I would comment on is yes, I agree with you. 
The State Department needs to have--there needs to be a 
different dynamic and part of it would be a new series of 
incentives that would have to be created at the Embassy level.
    Everybody, at the end of the day, even post 9/11, goes 
about their good old traditional missions and you can create a 
DNI. You can create an NCTC. It has very, very limited impact 
on how we do business overseas. The agency continues to do what 
it has always done and so does State, and so does DIA, and so 
does DoD and everybody else.
    So if you really decide that you want a networked approach 
to figuring out how to better go against Hezbollah, which is a 
complex undertaking, particularly because it is a criminal 
issue more than anyone else for the most part until they are 
called on to do terrorism, you really need to have everybody 
working together.
    Mr. Duncan. Yes, I agree. Look, I think NCTC, CIA--I think 
all of these organizations alphabet soup of them do a great 
job, and if you look at all the worldwide activity whether it 
is what happened in Tunisia today, what is going on with ISIS 
across North Africa and the Middle East, whether it is Iran and 
nuclear weapons, whether it is even terrorist attacks in 
Indonesia and India and others that are directly tied to Iran, 
this is our hemisphere. This is our neighborhood. These are our 
allies, our neighbors, our friends, and I will remind the 
committee that the largest loss of life from a terrorist attack 
prior to 9/11 happened in Buenos Aires in the 1994 attack--the 
largest loss of life from a terrorist attack.
    And many believe that Iran or Hezbollah, its proxy, was 
directly involved in that. We can't take our eye off that ball 
and it hits to home when it is here. I don't want to see it 
happen again here to anyone, most importantly, not to the 
United States or our assets or elements.
    And so this has been a great hearing. I am going to 
recognize the former chairman of the Western Hemisphere 
Subcommittee and now the chairman of the Asia-Pacific 
Subcommittee, my friend, Mr. Salmon, for 5 minutes.
    Mr. Salmon. Thanks a lot, Mr. Chairman.
    My question is to anybody who has a great answer, or even 
if it is a not so great answer go ahead and take a stab. But as 
we are looking at the Nisman allegations and his subsequent 
murder, logic dictates he must have had something beyond what 
he revealed before his death to have driven somebody to have 
murdered him.
    Have any of you looked closely at Argentina's missile 
program, formerly known as Condor II but reconstituted by 
President Kirchner as Gradicom?
    Is there any indication beyond conjecture that Kirchner 
transferred missile technology indirectly to Iran via 
Venezuela? As you all know, missile technology is really the 
missing piece should Iran be seeking to militarize its nuclear 
capability.
    So could this sort of technology transfer have been that 
grave finding that Nisman wanted to take to the U.N. Security 
Council but was murdered before he could reveal it?
    Mr. Humire. Mr. Salmon, the missile technology that was 
given to Venezuela from Argentina, the important component of 
that transfer is who received it in Venezuela.
    The recipient in Venezuela was the Venezuelan military 
industry known as CAVIM. CAVIM has been littered with Iranian 
agents as well as Iranian projects--joint projects that have 
several dual-use capacities.
    The missile transfer was just one of them. There were 
several other projects that were also done with CAVIM. CAVIM 
was sanctioned for this very purpose.
    I think it is highly probable that something nefarious was 
in that transfer because on the face of it the missile program 
that Argentina was building didn't have a real endogenous 
production.
    It wasn't something that they necessarily needed or the 
Latin Americans needed that much. They don't have those kind of 
conflicts right but--but it is something that perhaps Iran 
could have benefitted from.
    Mr. Salmon. Thank you.
    As an aside, I was in Buenos Aires back in April in 2013 
right around the time that the intercepts revealed that D'Elia 
and his Iranian interlocutor were discussing Foreign Minister 
Timerman's role in the alleged plan to whitewash Iran's role in 
the AMIA bombing.
    While I was there along with Ranking Member Sires, I met 
with Timerman and asked him about the Truth Commission his 
government signed with Tehran. I remember Timerman flying off 
the handle at the very question--very much an overreaction.
    I remember I walked out of my meeting, turned to my staffer 
and I asked, what is wrong with this guy--he seemed like a 
really extreme and overreaction to a--you know, a reasonable 
question.
    Now I know. Nisman's allegations show that Timerman was 
being asked to help cover up Iran's role in the largest attack 
against Jews since World War II.
    So that was just an aside I would like to share with the 
chairman, the committee and the panelists. There is a lot of 
stuff going on over there that we need some answers on and I 
don't--this administration, dealing with the current President, 
the current Foreign Minister is not very forthcoming. In fact, 
they put up brick walls every time we try to get close to 
something and people end up dead.
    Thank you, Mr. Chairman.
    Mr. Duncan. I thank the gentleman. I thank him for his 
leadership on that.
    We have got one last member, Mr. Yoho, for a final round of 
questions.
    Mr. Yoho. Thank you, Mr. Chairman, for indulging me, and 
gentlemen, I will make this hopefully quick.
    Hezbollah, the Party of God, is a Shi'ite Islamist militia. 
It was founded in 1982 in response to the first Israeli-
Lebanese War and its stated goal include wiping Israel off the 
map.
    Has that goal changed, in your opinions?
    Mr. Modell. I think it--I think it hasn't changed at all 
and I think that both Iranian and Lebanese Hezbollah officials 
have restated it.
    Mr. Yoho. Mr. Shifter?
    Mr. Shifter. The goal--that goal remains.
    Mr. Yoho. All right. Are we pretty much in agreement that 
that goal has not changed? And then it is disturbing to me that 
the U.S. national intel report that came out has removed Iran 
and Hezbollah off the terrorist threat list.
    Do you see that as just a--what do they call it? A 
graphical drop when they reformat at a graphical format error? 
Knowing what we know, and we also know that Fidel Castro went 
to Iran I think it was approximately 10 years ago and met with 
the Ayatollah, and they said their common goal was to bring 
America to its knees.
    Has that changed with the Cubans and the Iranians working 
together? Has that goal changed, in your opinions? Mr. Shifter, 
we will start with you.
    Mr. Shifter. I think the goal of Cuba has changed. I think 
the latest change in U.S.-Cuban relations suggests to me that 
that is not what the goal of the Cubans is, that they realize 
that they can't do that. They need the United States and that 
is why they are pursuing this opening with the United States.
    Mr. Yoho. Okay. So you feel that way. Does anybody else 
feel that way or is there a counterpoint--somebody feel 
different? That the Cuban----
    Mr. Humire. No. I believe, Mr. Yoho, that--the Iranians 
entered, by extension also as well, Hezbollah into a global 
campaign for international legitimacy.
    Latin America is a big component of that. The nuclear--the 
conversations and the negotiations over their nuclear program 
that began in 2013 paralleled the negotiations that were 
happening in Argentina to whitewash themselves from the AMIA 
attack.
    I mean, there was even some of the same negotiators. The 
former Foreign Minister of Iran, Ali Akbar Salehi, was also the 
negotiator for the nuclear program and we are talking about the 
same individuals that are looking to do the same things.
    Cuba's role in Latin America, aside from what they are 
telling the United States, is also a role of an intelligence 
function. They have restructured and enhanced the intelligence 
apparatus of many countries in Latin America to the benefit of 
Iran.
    This immigration scheme, which I want to--I want to clarify 
one thing. It is not--they are not fraudulent documents. These 
are state issued documents that are not doctored. They are 
actually given by the government to a Hezbollah member.
    The research at my center, we have a list of 173 
individuals that have gotten this type of service. That is 
evidence we have submitted to law enforcement. I would be happy 
to submit it to the----
    Mr. Yoho. No, I have seen that and that is the thing that 
disturbs me about this whole thing. In 2013, the State 
Department report stated that Iran and Hezbollah terrorist 
activity has reached a tempo unseen since the 1990s, and that 
is with sanctions on Iran.
    So I think this is something we need to really pay 
attention to and I think it is a misstep by our State 
Department and this administration to negotiate with Iran and 
open up that negotiation without giving anything.
    I mean, they still have four of our hostages. They have 
four Americans still sitting over there. To even open up those 
negotiations in good faith I would have asked for those to 
return.
    And so you kind of wonder why we even entered into this, 
and then you look at the relaxation of the foreign policy with 
Cuba that we got nothing out of, and then we sat here a week 
ago or 2 weeks ago and we asked the experts, did we get 
anything out of this and did the Cuban people--did they get 
more freedoms and liberties with the proposed change through 
the Obama administration.
    All four of them said no, and they all four said that this 
negotiation, along with what we are doing with Iran, has 
weakened the Western Hemisphere and has weakened America. And, 
you know, I can only take that as expert opinion and if that is 
true I just--I just think this is the wrong way and that we 
need to heed the warning.
    We had a professor in vet school that said if it walks like 
a duck, quacks like a duck, smells like a duck, it is a duck. 
What we are seeing is not good, I feel, for the direction of 
America and America's security and I think we need to pay 
strong attention to this.
    Mr. Shifter, do you have anything you want to add?
    Mr. Shifter. Just one final comment, if I could.
    Mr. Yoho. Sure.
    Mr. Shifter. I think you are right. But I also think that 
in terms of the role of Iran and Hezbollah I would also consult 
with the Israeli Government.
    They are--of all the governments besides ours would be 
concerned. I have talked to them a lot and at least what I 
have----
    Mr. Yoho. I think that is a wise--a wise decision.
    Mr. Shifter. I think they follow it closely.
    Mr. Yoho. Yes, sir. Thank you for your time. Mr. Chairman, 
thank you for the second round.
    Mr. Duncan. I thank the gentleman from Florida, and there 
being no other committee members we will wrap up.
    I will say that I agree with Mr. Humire that these aren't 
fraudulent travel documents. They are issued by a government. 
They are just carried by the wrong person or they are 
exchanged, as we see down in Paraguay, with a lot of Lebanese 
coming over, and this has been pointed out to me by the 
Paraguayan intelligence. So I think you are right.
    Well, pursuant to Committee Rule 7, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official record. As an addition, they may 
have additional questions that could be put in.
    So we are going to leave the hearing record open for 5 days 
to allow statements, questions, extraneous materials for the 
record subject to the length of limitations.
    And so there being no further business for the 
subcommittee, we will stand adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Jeff Duncan, a 
   Representative in Congress from the State of South Carolina, and 
            chairman, Subcommittee on the Western Hemisphere


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________

[Note: A statement by William Ross Newland III, submitted for the 
record by the Honorable Jeff Duncan, is not reprinted here but the link 
is available on the Internet at http://docs.house.gov/Committee/
Calendar/ByEvent.aspx?EventID=103177]

                                 [all]
</pre></body></html>
